 

No. 20-

IN THE
SUPREME COURT OF THE UNITED STATES
October Term, 2020

 

MICHAEL TORRENCE
Petitioner,
Vv.
COMMONWEALTH OF KENTUCKY,

Respondent.

 

ON PETITION FOR WRIT OF CERTIORARI
TO THE SUPREME COURT OF KENTUCKY

CERTIFICATE OF SERVICE

I, Joshua Farley, a member of the Bar of this Court, hereby certify that on this day
the 6th day of October, 2020, the attached Petition for Writ of Certiorari, and
Appendix were mailed, first-class postage prepaid, to counsel for Respondent, Hon.
Emily Lucas, Assistant Attorney General and to Hon. Daniel Cameron, Attorney
General of the Commonwealth of Kentucky, 1024 Capital Center Drive, P.O. Box
2000, Frankfort, Kentucky 40602-2000, (502) 696-5342, Counsel for Respondent.

All parties required to be served have been served.
Respectfully Submitted,

 

F. TODD LEWIS

111 W. Washington Street, Suite 400
Louisville, Kentucky 40202

(859) 816-5671

*Counsel of Record
jdf@farleylawky.com
